                               Department of the Interior 
                               Office of Inspector General 
                                                           
                                                               
                                                               
                                                               
            AUDIT REPORT 



                U.S. Fish and Wildlife Service 
             Federal Assistance Program Grants  
            Awarded to the State of Washington,  
              Department of Fish and Wildlife,  
          From July 1, 2004, Through June 30, 2006 




Report No. R­GR­FWS­0002­2007                    July 2007 
                   United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                                  12030 Sunrise Valley Drive, Suite 230
                                        Reston, Virginia 20191

                                                                                    July 27, 2007

                                    AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Director of External Audits

Subject:       Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
               Awarded to the State of Washington, Department of Fish and Wildlife, From July
               1, 2004, Through June 30, 2006 (No. R-GR-FWS-0002-2007)

        This report presents the results of our audit of costs incurred by the State of Washington
(State), Department of Fish and Wildlife (Department), under grants awarded by the U.S. Fish
and Wildlife Service (FWS). The FWS provided the grants to the State under the Federal
Assistance Program for State Wildlife and Sport Fish Restoration (Federal Assistance Program).
The audit included claims totaling approximately $34.5 million on the grants awarded for State
fiscal years (SFYs) 2005 and 2006 (see Appendix 1). The audit also covered Department
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned $211,339 (federal share) and developed
findings related to in-kind contributions and program income.

        We provided a draft of the report to FWS and the Department for response. We
summarized Department and FWS Region 1 responses after each recommendation, as well as our
comments on the responses. FWS stated they would work with the Department when preparing
the corrective action plan. We list the status of each recommendation in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
October 25, 2007. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader, Mr.
Tim Horsma at 916-978-5668, or me at 703-487-5345.

cc:   Regional Director, Region 1, U.S. Fish and Wildlife Service
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife and Sport Fish
Restoration. Under the Federal Assistance Program, FWS provides grants to States to restore,
conserve, manage, and enhance their sport fish and wildlife resources. The Acts and federal
regulations contain provisions and principles on eligible costs and allow FWS to reimburse the
States up to 75 percent of the eligible costs incurred under the grants. The Acts also require that
hunting and fishing license revenues be used only for the administration of the State fish and
wildlife agency. Finally, federal regulations and FWS guidance require States to account for any
income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

       •   incurred the costs claimed under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

       •   used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

       •   reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $34.5 million on 43 FWS grants that were
open during SFYs 2005 and 2006 (see Appendix 1). We performed our audit at Department
headquarters in Olympia, WA, and visited four wildlife areas (WLAs) and two fisheries-related
locations (see Appendix 2). We performed this audit to supplement, not replace, the audits
required by the Single Audit Act Amendments of 1996 and by Office of Management and
Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted other auditing
procedures as necessary under the circumstances. Our tests and procedures included:


1
    As amended 16 U.S.C. §§ 669 and 777, respectively.


                                                         2
   • examining the evidence that supports selected expenditures charged to the grants by the
     Department;

   • reviewing transactions and supporting documentation related to purchases, other direct
     costs, drawdowns of reimbursements, and in-kind contributions, and program income;

   • interviewing Department employees to ensure that personnel costs charged to the grants
     were supportable;

   • conducting site visits to review equipment and other property;

   • determining whether the Department used hunting and fishing license revenues solely for
     sport fish and wildlife program purposes; and

   • determining whether the State passed required legislation assenting to the provisions of
     the Acts.

To the extent possible, we relied on the work of the State Auditor, which helped us to avoid
duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessment, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in those systems for testing. We did not project the results of tests to the
total population of recorded transactions or evaluate the economy, efficiency, or effectiveness of
Department operations.

Prior Audit Coverage

On March 31, 2004, we issued, “Audit Report, U.S. Fish and Wildlife Service Federal Assistance
Grants Administered by the State of Washington, Department of Fish and Wildlife from July 1,
2000, through June 30, 2002” (Report No. R-GR-FWS-0029-2003). We followed up on all
recommendations in the report and found that the Department of Interior, Office of the Assistant
Secretary for Policy, Management and Budget (PMB) considered all but one resolved and
implemented.

The unresolved recommendation relates to the method the Department used to charge certain
overhead costs to the grants. As reported in the prior audit, employee fringe benefit costs,
including annual and sick leave, were incorrectly charged during the month the leave was taken
rather than when it was earned. We recommended that the Department charge employee leave in
accordance with how employees earn the leave or to develop a system to charge and allocate
leave using an overhead cost pool.

In their response to our draft report, the Department indicated they are in the process of
modifying Departmental systems and processes. The modified systems and processes will
charge leave to federal projects when employees earn the leave. FWS indicated they will


                                              3
monitor the Department’s progress in implementing our recommendation and that the targeted
implementation date is May 2008. We referred all recommendations from our prior audit to
PMB for tracking, so the Department and FWS should report to PMB the actions taken.

We reviewed Washington’s Comprehensive Annual Financial Report and Single Audit Report
for SFY2005. The Department’s Federal Assistance Programs were not selected for compliance
testing in the SFY2005 single audit. Further, the SFY2005 Single Audit Report did not contain
any findings that would directly impact the Department’s Federal Assistance Program grants.




                                            4
                                     Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including $211,339 (federal share) in
questioned costs. We discuss these findings in more detail in the Findings and
Recommendations section.

       Questioned Costs. We questioned as unsupported $282,362 in costs claimed as the State
       matching share of costs under the Department’s aquatic education grants. Of this
       amount, we calculated a federal share of $211,339.

       Unreported Program Income. The Department had not reported all program income
       generated on lands within the WLAs managed with Federal Assistance Program funds.
       The Department earned the unreported program income from barter transactions and
       from a timber harvest.

Findings and Recommendations

A.     Questioned Costs: Unsupported In-Kind State Matching Share — $211,339

       Under Federal Assistance Program grants, FWS may reimburse a State up to 75 percent
       of grant expenditures, provided the State expends the required matching share of grant
       costs. The Department used third-party in-kind (non-cash) contributions of $143,998 on
       Aquatic Education Grant F-91-AE-19 and $179,029 on Aquatic Education Grant F-91-
       AE-20 to meet the State matching requirement. The contributions consisted of volunteer
       hours. The Department did not comply with all applicable regulations in claiming the
       value of these hours as its matching share of expenditures under the grant.

       When a State uses third party in-kind contributions to meet its matching share of
       expenditures, regulations require that the contributions be verifiable from grantee records
       and that, to the extent feasible, the grantee support volunteer services by the same method
       used to support regular personnel costs (43 C.F.R. § 12.64(b)(6)). The regulations (43
       C.F.R. § 12.64 (c)(2)) also state that when an employer other than the grantee donates the
       services of an employee in the normal line of work, the grantee should value the services
       at the employee’s regular rate of pay. The grantee should not include the employee’s
       fringe benefit rate and overhead costs in the valuation.

       We tested the support for the hours claimed as in-kind match and found that the
       Department maintained adequate support for event volunteers. The Department’s
       remaining claimed in-kind match consisted primarily of teacher and elementary school
       student classroom hours, for which the Department did not have adequate support. The
       Department did not value teacher’s hours at the employee’s regular rate of pay, exclusive


                                              5
of the employee’s fringe benefit rate and overhead costs, as required under federal
regulations. Additionally, the hours claimed were based on estimated rather than actual
hours volunteered. Finally, with the exception of event volunteers, the Department’s
method for documenting volunteer hours claimed as in-kind match did not require each
volunteer to certify his or her hours claimed, although the Department does require its
employees to certify their hours worked.

As a result, we are questioning the following costs as unsupported:

                             Grant Number        Grant Number
                              F-91-AE-19          F-91-AE-20            Total
Claimed                        $143,998            $179,029            $323,027
Supported Hours for             $17,046             $23,619             $40,665
Event Volunteers
Questioned as                   $126,952            $155,410           $282,362
Unsupported
Federal Share                    $94,781            $116,558           $211,339

                 Table 1. Summary of Questioned Costs by Grant

Department employees were not aware of the requirement to provide certified timesheets
for its volunteer hours. Additionally, according to Department officials, the FWS
approved the teacher and student volunteer hours to be used as the State matching share.
However, we questioned as unsupported the entire amounts of teacher and student hours
claimed because we were not provided data on the teacher’s regular rates of pay, the
hours were based on estimated rather than actual hours, and each volunteer was not
required to verify his or her hours volunteered.

Subsequent to our audit fieldwork, Department officials told us that they agreed with the
finding and were in the process of providing support to FWS to resolve this issue.

Recommendations

We recommend that FWS:

1. resolve the $211,339 of in-kind matching costs questioned as unsupported,

2. require the Department to establish and implement procedures requiring volunteers to
   certify their claimed in-kind hours worked, and

3. require the Department to establish and implement procedures to value in-kind hours
   claimed for paid teachers’ classroom hours in accordance with applicable federal
   regulations.




                                      6
     Department Response

     Department officials propose using a “results-based” approach to support the in-kind
     contributions claimed. The contributions involved teachers and students rearing fish eggs
     in the classroom. The officials determined, in consultation with experienced hatchery
     staff, that each project completed by a classroom takes a baseline of 40 hours. They also
     indicated that the hourly rate for the staff position that is responsible for rearing fish eggs
     is $21.77. For each completed project, they therefore calculated in-kind match of
     $870.80 (40 hours multiplied by $21.77 per hour). Department officials reported 439
     completed projects for grants F-91-AE-19 and F-91-AE-20 by counting the number of
     classrooms that returned planting records, for a total of $382,280 in in-kind contributions.

     FWS Response

     FWS management concurred with the recommendations and stated that the Department’s
     response to recommendation one is reasonable and applicable. They stated that the
     Department did not directly address recommendations two and three, but that they will
     address any outstanding issues in the corrective action plan.

     OIG Comments

     FWS regional management concurred with the recommendations and the Department
     indicated action was taken to address recommendation one. Additional information is
     needed in the corrective action plan, including:

        •   actions taken or proposed to address recommendations two and three;

        •   targeted completion dates;

        •   titles of officials responsible for the actions taken or planned to resolve and
            implement the recommendations; and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the State to address recommendations one, two, and three.

B.   Unreported Program Income

     Federal regulations allow grantees to earn income as a result of grant-supported activities,
     but the grantee must account for the income in an approved manner. The Department did
     not report all of the program income it generated on lands within WLAs managed and
     maintained with Federal Assistance Program funds, as required under federal regulations.
     The Department earned the unreported program income through barter transactions and a
     “salvage” sale of timber that burned during a wildfire on forested land in the WLA.

     According to 43 C.F.R. § 12.65(b), program income is gross income a grantee receives
     that is generated by a grant supported activity or earned only as a result of the grant


                                             7
agreement. Under Section 12.65(g), grantees normally deduct program income from the
total allowable costs to determine the net allowable costs. The grantor may allow the
grantee to use an alternative to account for program income. Also, as specified in the
FWS Manual (522 FW 19, Exhibit 1), program income includes income generated during
the grant period from the harvest of assets—such as timber or hay—that contribute to
grant objectives on lands purchased or managed with Federal Assistance Program funds.
The Manual (522 FW 19.8) also specifies that an excess program income balance may be
applied, as appropriate, to a subsequent grant that has purposes consistent with the grant
that generated the excess program income.

The Department entered into barter arrangements to support activities conducted under
grants W-94-D-22 and W-94-D-23. The Department issued agreements in which farmers
who lease tillable acreage of a WLA left a portion of their crop in the field for the benefit
of wildlife, in lieu of paying for the use of the land. Since the crops serve as payment for
use of the land, their value should be reported and accounted for as program income. A
Department official told us that he did not report the value of the crops as program
income because he was not aware that the barter arrangements were to be treated as such.
The official also stated that he did not know how to value and report the income on the
Financial Status Report (SF-269), which summarizes expenditure activity over the grant
period. Finally, he stated that the Department does not have procedures to identify barter
transactions, or to account for and report this type of arrangement.

In addition, the Department received income from the sale of timber after a wildfire on
the William T. Wooten WLA, which is managed and maintained with funds provided
under grants W-94-D-22 and W-94-D-23. Although the Department reported as program
income the portion of revenue that was received from the timber sale and then disbursed
in 2006, it had not reported on the grant’s SF-269 about $2.1 million in program income
that had not yet been disbursed. It had not been disbursed because the Department could
not expend all of the program income it earned on the grant during the grant period.

Department officials did include in the final amendment to the grant agreement narrative
related to the additional program income from the timber harvest, and similar narrative in
a performance report that they prepared for the FWS on grant activities. However,
program income should be reported on the SF-269. Department officials stated that
earning program income under one grant period that is disbursed after the grant period
ends is unique, and they were not aware of the specific reporting requirements on the
SF-269 for such an arrangement.

Although we recognize the difficulty in valuing barter income and the unique situation
regarding program income that is not disbursed during the grant period, proper reporting
of all program income will help ensure that these revenues are used to benefit program
purposes.

Subsequent to our audit fieldwork, Department officials told us that they agreed with the
finding and were in the process of providing support to FWS to resolve this issue.




                                        8
Recommendations  

We recommend that FWS:

1. resolve the issue of the unreported program income from the barter transactions that
   occurred during the audit period;

2. require the Department to report on the SF-269 the unreported program income from
   the timber harvest on the William T. Wooten WLA; and

3. coordinate with the Department to establish procedures to (a) identify the barter
   transactions and the appropriate accounting and reporting of this arrangement in the
   grant application, and (b) appropriately report the value of the crops received.

Department Response

Department officials concurred with the recommendations. They revised the SF-269 for
grant W-94-D-23 so it now includes all program income from the timber harvest. In
addition, officials indicated they will report all future program income earned from barter
transactions.

FWS Response

FWS regional management concurred with the recommendations and stated that the
Department has addressed recommendations one and two by submitting the revised
SF-269. However, the Department did not yet issue a policy. FWS will address any
outstanding issues in the corrective action plan.

OIG Comments

The Department submitted a revised SF-269 for grant W-94-D-23 to address the
unreported program income from the timber sale, but did not indicate that the revision
includes program income from barter transactions. FWS should determine whether the
revised SF-269 adequately addresses recommendation one.

Additionally, while FWS management concurs with the recommendations and the
Department indicated action was or is being taken to address them, additional
information is needed in the corrective action plan, including:

   •   targeted completion dates,

   •   titles of officials responsible for the actions taken or planned to resolve and
       implement the recommendations, and

   •   verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the State.


                                       9
                                                                                                 Appendix 1
                                                                                                   Page 1 of 2

                        WASHINGTON DEPARTMENT OF FISH AND WILDLIFE
                          FINANCIAL SUMMARY OF REVIEW COVERAGE
                             JULY 1, 2004 THROUGH JUNE 30, 2006

                                                                                   Questioned Costs
               Grant                 Grant                                         Total       Federal
              Number                Amount           Costs Claimed1            (Unsupported)    Share
           F-43-D-48                   $83,851               $30,407
           F-43-D-49                    62,823                20,229
           F-84-B-19                 1,111,005             1,111,005
           F-84-B-20                 1,088,000             1,088,000
           F-85-B-15                   422,040                89,746
           F-91-AE-19                  575,992               574,262                $126,952    $94,781
           F-91-AE-20                  716,117               716,117                 155,410    116,558
           F-97-R-17                    52,231                51,022
           F-97-R-18                    52,231                52,231
           F-97-R-19                    54,074                54,060
           F-112-R-11                2,042,920             2,014,651
           F-112-R-12                2,214,700             2,033,037
           F-112-R-13                3,245,302             2,985,640
           F-122-B-3                    88,374                68,324
           F-123-D-3                   949,865               742,493
           F-123-D-4                   985,865               470,883
           F-124-D-3                 1,708,651             1,700,714
           F-124-D-4                 1,708,651             1,687,359
           F-125-D-2                   297,724               197,852
           F-125-D-3                   436,559               436,559
           F-125-D-4                   440,439               439,211
           F-126-R-2                    47,907                31,970
           F-126-R-3                    57,939                53,737
           F-126-R-4                    47,733                47,733
           F-127-R-1                 1,086,552             1,027,794
           F-127-R-2                 1,076,007             1,076,007
           F-127-R-3                 1,376,504             1,358,141


1
    Represents total outlays shown on the financial status reports (SF-269).




                                                         10
                                                                                              Appendix 1
                                                                                                 Page 2 of 2

                        WASHINGTON DEPARTMENT OF FISH AND WILDLIFE
                          FINANCIAL SUMMARY OF REVIEW COVERAGE
                             JULY 1, 2004, THROUGH JUNE 30, 2006

                                                                             Questioned Costs
                Grant               Grant              Costs               Total          Federal
               Number              Amount             Claimed1         (Unsupported)       Share
            F-129-E-1                 245,636            200,459
            FW-2-T-22                 585,401            585,401
            FW-2-T-23                 617,230            608,587
            W-41-D-54                 673,650            673,650
            W-41-D-55                 600,000            600,000
            W-42-L-53                 255,130            255,130
            W-42-L-54                 255,129            255,129
            W-83-HS-34                709,343            712,145
            W-83-HS-35                836,403            765,822
            W-94-D-22               1,812,701          1,812,661
            W-94-D-23               2,252,052          2,252,052
            W-96-R-13               2,417,422          2,415,092
            W-96-R-14               2,921,448          2,921,448
            W-98-E-3                  153,220             94,250
            W-98-E-4                  106,666             95,824
            W-98-E-5                   66,666             66,666
            Totals                $36,538,153        $34,473,500               $282,362   $211,339




________________________
1
    Represents total outlays shown on the financial status reports (SF-269).




                                                         11
                                             Appendix 2


WASHINGTON DEPARTMENT OF FISH AND WILDLIFE
              SITES VISITED

                  Headquarters

                     Olympia


                     Wildlife

               Asotin Wildlife Area
              Klickitat Wildlife Area
          Mt. St. Helens Wildlife Area
         William T. Wooten Wildlife Area

                    Fisheries

                Region 5, Vancouver
          Eells Springs Hatchery, Shelton




                      12
                                                                                       Appendix 3

                      WASHINGTON DEPARTMENT OF FISH AND WILDLIFE
                      STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS




Recommendations                    Status                            Action Required


A.1, A.2, A.3, B.1,     FWS management concurs          Additional information is needed in the
B.2, B.3                with the recommendations        corrective action plan, including the
                        but additional information      actions taken or planned to implement the
                        is needed, as outlined in the   recommendations, targeted completion
                        “Action Required” column.       date(s), the title of official(s) responsible
                                                        for implementation, and verification that
                                                        FWS headquarters officials reviewed and
                                                        approved of actions taken or planned by
                                                        the State. We will refer recommendations
                                                        not resolved and/or implemented at the
                                                        end of 90 days (after October 25, 2007) to
                                                        the Assistant Secretary for Policy,
                                                        Management and Budget for resolution
                                                        and/or tracking of implementation.




                                              13
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
